1

No.

2
3
4
5
6

IN THE
SUPREME COURT OF THE UNITED STATES

7

Kaon-Jabbar East El PETITIONER
8

vs.

9
10

United Parcel Service, Inc. RESPONDENT(S)

11

ON PETITION FOR A WRIT OF CERTIORARI TO

12
13

United. States Court of Appeals For The Ninth Circuit

14

("AMENDED") PETITION FOR WRIT OF CERTIORARI
15
16

Kaon-Jabbar East El
(Your Name)

17
18

4788 N. Lombard St.
(Address)

19
20

Portland, OR. 97203
(City, State, Zip Code)

21
22
23

503.875.4783
(Phone Number)

24
25
26
27
28
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

QUESTION(S) PRESENTED
In Title VII of the Civil Rights Act of 1964, Congress generally prohibited private employers
from discriminating against an individual "because of such individual's race, color, religion,
sex, or national origin." 42 U.S.C. §§ 2000e-2(a)(1), 2(a)(2) and 2(c)(2). In 1972, Congress
amended the statute to specify that " 'religion' includes all aspects of religious observance
and practice, as well as belief, unless an employer demonstrates that he is unable to
reasonably accommodate to an employee's or prospective employee's religious observance
or practice without undue hardship on the conduct of the employer's business." § 2000e(j).
Furthermore, an additional legal analysis is needed to determine, whether the initial
Dismissal at the District Court level was a product of compromised adjudication. When the
Founding Fathers established the Judicial Branch under the said Government, they
expressly enacted a "Due Process Clause" to guarantee not only the 'unalienable rights' of
American citizens, but to guarantee the judicial seat cannot be swayed by personal gain.
The Constitutional questions presented are as follows:
Can an employer justify zero accountability for wrongful employee discrimination with a
federal policy or statute, as a loophole to pressure an employee into the 'involuntary act' of
coMpleting a 'voluntary section' of an emPloyee application; especially when the 'involuntary
act' of an employee is selecting from a list of 'voluntary' race classifications only after
pressured by the employer, while disregarding employee's expressed religious conflict with
said race classifications?
Can a judge preside over a Case involving a litigant whom said judge once had a fiduciary,
attorney-client privilege, and/or business relationship with?
Can a lower Court suspend a Rule in order to extend filing deadlines, due to ungovernable
conditions of natural disasters, such as global pandemics and national epidemics;
especially if the Supreme Court of The United States has already manifested such an
extension for itself as a higher Court?

"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

3
4
5
6
7
8
9

[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties
to the proceeding in the court whose judgment is the subject of this petition is as follows:
RELATED CASES
United States District Court (Portland, OR):
East El v. United Parcel Service, Inc.
Case No. 3:19-cv-333-SI. (May 22, 2020)
United States Court of Appeals (9th Circuit):
East El v. United Parcel Service, Inc.
Case No. 20-35590 (March 29, 2021)

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OIL 97283
503.875.4783

1
2

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

10

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

11

STATEMENT OF THE CASE

12

7

REASONS FOR GRANTING THE WRIT

17

8

CONCLUSION

22

4
5
6

9
10

INDEX TO APPENDICES
APPENDIX A: United States Court of Appeals: Ninth Circuit (DENIED)

2

APPENDIX B: United States Court of Appeals: Ninth Circuit (DIMISSED)

4

APPENDIX C: United States District Court of Portland Oregon (DISMISSED)

7

14

APPENDIX D: Supreme Court of the United States (150 Day Extension)

8

15

APPENDIX E: Supreme Court of the United States (Rescinding ORDER)

10

11
12
13

16
17
18
19
20
21
22
23
24
25
26
27
28

"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Caperton v. A. T. Massey Coal Co. (2009)
22
EEOC v. Abercrombie & Fitch (2015)
19
Fort Bend County v. Lois M. Davis (2019)
21
Green v. Brennan (2015)
22
Harris Funeral Homes v. EEOC (2020)
21
Holland v. Jackson (2004)
22
McDonnell Douglas Corp. v. Green (1973)
22
Tinker v. Des Moines (1969)
21
Trans World Airlines, Inc. v. Hardison (1977)
19
Young v. Kenney (2020)
23
Young v. UPS (2015)
19
CONSTITUIONAL PROVISIONS, STATUTES, AND RULES
28 U.S. Code § 2107(a)
18
28 U.S. Code § 2107(c)(2)
18
28 U.S. Code § 455 - Disqualification of justice, judge, or magistrate judge
22
42 U.S.C. § 2000e(j)
13
42 U.S.C. § 2000e-2(a)(1)
13
42 U.S.C. § 2000e-2(a)(2)
13, 21
42 U.S.C. § 2000e-2(c)(2)
13, 21
American Bar Association: Rule 2.11 Disqualification
22
Code of Conduct for United States Judges: 3(C) Disqualification
22
Constructive Termination: Common Law
22
FRAP Rule 2
23
FRAP Rule 4(6)(a)(b)(c)
18
FRCP Rule 6(d)
23
FRCP Rule 37
22
ORS § 659A.030
14
ORS § 659A.199
14
Title VII of the Civil Rights Act of 1964
Questions Presented, 21
U.S. Constitution, First Amendment
13, 17, 21
OTHER AUTHORITIES
Article: "Obama Nominates Two For U.S. District Court Judgeships In Oregon"
17
Article: "President Obama Names Five To The United States District Court"
17
Article: "Rep. David Wu loses another employee: attorney Michael Simon"
17
Article: "UPS Picks Perkins Coie As Legal Counsel"
17
Diagnostic Statistical Manual for Disorders
21
IPUMS-USA: Census Data for Social, Economic, and Health Research
20
Koran Questions for Moorish Americans (No. 85)
20
Office of Management and Budget (OMB) Federal Directive 15
20
Standard Form EEO-1 Reporting
21
The Divine Constitution and By-Laws (Act 6)
20
The Holy Koran of The Moorish Science Temple of America: Chapter 47:9-11
19
The Prophet Makes Plea To Nation, ¶ 1, Sent. 1
19
UPS Policy Book: Values: We Promote an Open Door Approach to Managing People
19
UPS Policy Book: We Maintain an Environment Free of Discrimination and Harassment
19
UPS Policy Book: Values: Our Enduring Beliefs
21
USPS Coronavirus Updates: Expected Delivery Changes
19
White By Law: The Legal Construction of Race (2006), preface XV, /3
20
"AMENDED" PETITION
Kaon-Jabbar East El
FOR WRIT OF CERTIORARI
(Pro Se)
IN THE SUPREME COURT
4788 N. Lombard St., #5
OF THE UNITED STATES
Portland, OR. 97283
09/07/2021
503.875.4783

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the
petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix C to the petition
and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Append ix
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or, [ ] is unpublished.
The opinion of the court appears at Appendix to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was October 16, 2020 .
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: March 29, 2021, and a copy of the order denying
rehearing appears at Appendix A .
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

12.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1
2
3
4
5
6
7

9
10
11
12
13
14
15
16
17

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment reads as follows: Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom
of speech, or of the press; or the right of the people peaceably to assemble, and to petition
the Government for a redress of grievances.
42 U.S.C. § 2000e-2(a)(1) to fail or refuse to hire or to discharge any individual, or
otherwise to discriminate against any individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such individual's race, color, religion,
sex, or national origin.
42 U.S.C. § 2000e-2(a)(2) to limit, segregate, or classify his employees or applicants for
employment in any way which would deprive or tend to deprive any individual of
employment opportunities or otherwise adversely affect his status as an employee, because
of such individual's race, color, religion, sex, or national origin.
42 U.S.C. § 2000e-2(c)(2) to limit, segregate, or classify its membership or applicants for
membership, or to classify or fail or refuse to refer for employment any individual, in any
Way which would dePeive or tend to deprive any individual of employment -opportunities, or
would limit such employment opportunities or otherwise adversely affect his status as
an employee or as an applicant for employment, because of such individual's race,
color, religion, sex, or national origin.
42 U.S.C. § 2000e(j) defines "religion": The term "religion" includes all aspects of religious
observance and practice, as well as belief, unless an employer demonstrates that he is
unable to reasonably accommodate to an employee's or prospective employee's religious
observance or practice without undue hardship on the conduct of the employer's business.

18
19
20
21
22
23
24
25
26
27

13.

28
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1
2
3

5
6

STATEMENT OF THE CASE
Plaintiff-Appellant Kaon-Jabbar East El ("Mr. El"), brought this action against his former
employer, Defendant-Appellee United Parcel Service, Inc. ("UPS"). Mr. El worked for UPS
from November 19, 2016 through January 15, 2017, and turned down an offer to return to
UPS on February 2, 2017; due to the disparate impact he experienced as a result of
disparate treatment by UPS. Mr. El asserted four claims, alleging: (1) religious
discrimination, in violation of Oregon Revised Statutes ("ORS") § 659A.030; (2) race
discrimination, in violation of ORS § 659A.030; (3) whistleblower retaliation, in violation of
ORS § 659A.199; and (4) common law constructive termination.

7
8
9
10
11
12
13
14
15
16
17

Mr. El completed an online application for the position of seasonal Driver Helper at UPS on
November 17, 2016. This online application includes a "voluntary self-disclosure" section
asking applicants to state their race, but never allowed applicants the option of checking a
box stating, "choose not to voluntarily self-disclose," until only after Mr. El filed his civil suit.
During the period of Discovery it was revealed (at Mr. El's November 21, 2019 Deposition)
that UPS produced two `unalike' employment applications, and Mr. El challenged this issue
during his Deposition, because one of the applications Mr. El had never seen before.
The online application also included a 'race' disclosure field in the "personal information"
section. Mr. El declined to answer all racial identification questions and left them blank, but
(even though he has never been convicted nor charged with a crime) Mr. El also left the
`voluntary' criminal history section blank. He further maintains that neither 'racial'
identification question he saw, gave applicants the option to select "Other" (nor 'the like)
which is equivalent to "choose not to voluntarily self-disclose." Mr. El stated that he
declined to answer these questions, because as a member of Moorish Science Temple of
America ("MSTofA") misclassifying his race conflicts with his religious beliefs, as a Moorish
American Moslem; as taught to him by Prophet Noble Drew Ali in the religion of Islamism.
[Note: Mr. El's religion prefers the original spelling "Moslem" over the altered "Muslim."]

18
19
20
21
22
23
24
25
26

Mr. El interviewed at UPS on November 19, 2016 and received an offer to work as a
seasonal Driver Helper. Mr. El's interviewer Cassandra Jackson ("Ms. Jackson") never
mentioned nor made any issue about the 'voluntary' application sections, which Mr. El left
blank. Though Mr. El acknowledges Ms. Jackson may have told him that there was
additional paperwork he would have to fill out; Ms. Jackson never told Mr. El that UPS
would treat his Voluntary' information as 'involuntary.' Shortly after the interview, Mr. El met
his former supervisor Karl Zabel ("Mr. Zabel") during a facility tour with other coworkers.
During new employee orientation on November 26, 2016, Lori Atkinson ("Ms. Atkinson"),
UPS Human Resources Supervisor ("HR Supv.") approached Mr. El and had him removed
from employee orientation and informed him that his application was incomplete. Ms.
Atkinson told him that UPS could not get him paid; until he completed the race classification
portions of the application. The available options stated on the printed form were "Hispanic,"
'White," "Black," "Asian American/Pacific Islander," "Hawaiian or Other Pacific Islander,"

27

14.

28
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

"American Indian/Alaskan Native," and "Two or More Races." The online form did not
include an option for "Other" (nor 'the like') which is equivalent to "choose not to voluntarily
self-disclose." Mr. El told Ms. Atkinson that he left the race classification question blank,
because it was 'voluntary' and that misclassifying himself with the available race
classifications conflicted with his religion. Ms. Atkinson informed Mr. El that UPS would not
be able to pay Mr. El; unless he selected a race classification. Mr. El repeated that choosing
any of the listed options would 'vehemently' conflict with his religion; wherein, Prophet
Noble Drew Ali teaches him that his race is "Human." He asked Ms. Atkinson if he had to
"compromise how he religiously identifies and racially identifies to get paid?" Ms. Atkinson
told Mr. El that she understood his point, but "the feds make us do it," which clearly
conveyed she was not going to stop, regardless of Mr. El's 'expressed' religious dissent.
Mr. El disagreed with Ms. Atkinson pressuring him into religious compromise by coercing
him to select from race classifications, which clash with his religion, so Ms. Atkinson called
over another HR Supv. named Abzael Loeza ("Mr. Loeza") to hammer home the point with
more pressure. Mr. El stated that he would 'temporarily' select 'White" under protest, but
qualifying his identity as a Color (or any classification connected to a Color) is against his
religion. However, he 'involuntarily' selected "White" since "North Africa" (specifically
Morocco) is included in the legal definition of "White." As a Moorish American Moslem,
Mr. El's religion teaches him, that he is a descendant of Moroccans and born in America.
Toward the end of the meeting, Mr. El informed Ms. Atkinson that the situation upset him
and that he would return with his religious documentation. Mr. El also requested that UPS
create a racial option for "Other" (or 'the like') or even a 'write-in'. Mr. El met with Ms.
Atkinson again on December 9, 2016. They discussed his issue with the race identification
question. Mr. El repeated his objections and asked that UPS change his race to "Human"
on the form. He further clarified his religion teaches him, that his race-group is "Asiatic",
which is not to be confused with (nor equated to) "Asian" and he would like to be able to
'write-in' the correct self-identifier, according to his religion. Ms. Atkinson told Mr. El that
there was nothing she could do. Mr. El obtained contact information for one of Ms.
Atkinson's superiors Regional HR Director: Dominique Johnson ("Ms. Johnson") from the
receptionist on his way out.
Mr. El spoke with Ms. Johnson by telephone approximately three times, and he reiterated
that being pressured to both: (1) self-identify his race 'involuntarily' and (2) select from race
classifications, which conflicted with his religious beliefs; were still unresolved issues. Ms.
Johnson scheduled a meeting with Mr. El, but suddenly could not attend in person, so she
had District HR Director: Dennis Ewing ("Mr. Ewing") into replace her, but. Ms. Johnson did
call into the meeting. Mr. El again asked that UPS provide him with the option of listing
"Human" or "Other" and that UPS correct Mr. El's race classification in its records. Ms.
Johnson and Mr. Ewing responded, that they would get back with Mr. El and never did.
After completing all HR requests of 'on-call' Driver Helpers at UPS by Ms. Atkinson, Mr. El
was required to check-in via email or phone by 7 a.m. or by 11 a.m. only if he missed the 7
a.m. check-in. Then, the Driver Helper Coordinator: Mr. Zabel, became able to assign him
to assist a UPS Driver, if help was needed. Driver Helpers who do not miss any days of
15.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

checking-in to confirm their availability may collect an availability bonus of $200 at the end
of each week, even if they are not ultimately assigned to assist a UPS Driver.
Mr. El spoke with Mr. Zabel by telephone on December 12, 2016 to check in and to inform
him that he would be unavailable to work from December 15, 2016 through December 19,
2016, because of a death in his family. Mr. El also requested, by email on December 15,
that Mr. Zabel discontinue sending Mr. El daily emails; until his original return date
December 20. Consequently, Mr. El suffered another family death on December 19, 2016 in
the same city of the original December 16, 2016 funeral he initially came for. To this effect,
Mr. El left Mr. Zabel a voicemail on December 19, 2016 informing Mr. Zabel, that he would
be returning one day later than expected on December 21, 2016; instead of December 20,
2016, due to the sudden additional family loss. Mr. Zabel missed that voicemail and called
Mr. El on the morning of December 20, 2016 to ask about Mr. El's availability. Mr. El did not
respond immediately, but later that morning sent an email to Mr. Zabel explaining that he
would not be returning until the next day.
Mr. El returned to Portland very early the next morning, and checked-in with Mr. Zabel via
email, but was not assigned to a Driver (i.e. "on car"). Mr. El also was available for work on
December 22nd and December 231d of 2016, but was not assigned to assist a UPS Driver
either day. Mr. El received his availability bonus check on December 23rd and discussed
with Mr. Zabel about the religious and racial discrimination issues, which started and
stemmed from his interaction with Ms. Atkinson. On December 27, 2016, Mr. Zabel sent a
group email to all UPS Driver Helpers whom Mr. Zabel was coordinating, asking if any
would be interested in a permanent position at the UPS Portland hub. Mr. El replied,
expressing interest in a permanent position and also asking whether any Driver Helper
shifts were available that day. Again, Mr. Zabel informed Mr. El that no Driver Helper shifts
were available that day, and Mr. Zabel promised to follow up with more information on the
permanent position.
Mr. El's first attorney Alan Nieczyporuk severed relationship with HKM, LLP and said Law
Firm did not communicate this to Mr. El for 3 weeks. Mr. El expressed his disappointment
on the transition method and substitute counsel: Shemia Fagan (then Oregon Senator:
District 24, now Oregon Secretary of State) filed a Motion To Withdraw As Counsel, and
Mr. El has been Pro Se ever since said Motion. At Mr. El's November 21, 2019 Deposition,
UPS produced two `unalike' Employee Applications, that Mr. El had allegedly filled out, but
one of the applications Mr. El had never seen before. One which includes an incomplete
Felony/Conviction section [pg. 4, Bates #000004]. This same Felony/Conviction section was
removed from both [pg. 9, Bates #000096] and [pg.24, Bates #000111]. Furthermore, the
portion of the Deposition wherein UPS Lawyer (Mr. Morehead, Esq.) acknowledged that the
Employment Applications come from 'two different sources' is [pg. 263, line 2-25], which
was further clarified in extended dialogue [pg. 21, line 20—pg. 51, line 20]. Deposition
Transcript and both `unalike' Employee Application exhibits are not included, due to the 40
page minimum, but will be made available upon the Court's request at a future date.

16.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1

3
4
5
6
7

9
10
11
12
13
14

During May 18, 2020 Oral Argument, Mr. El stipulated to Judge Simon, that in UPS's
MOTION FOR SUMMARY JUDGEMENT; UPS added a DECLARATION IN SUPPORT
FOR SUMMARY JUDGEMENT from Ms. Atkinson labeled "UPS-R 000097" which
contained back office email dialogue about Mr. El (between Ms. Atkinson, Mr. Loeza,
Mr. Ewing, and Ms. Johnson) regarding Mr. El's religious/racial Complaint, and UPS never
provided exhibits Bates numbered "UPS-R #414#114#t" during Discovery. Rather UPS only
provided exhibits Bates numbered "UPS 11444444:#" without the "-R". This means UPS
provided exhibits Bates numbered "UPS 000001-000120," but UPS never provided
exhibits Bates numbered "UPS-R 000001-000096" or more, except "UPS-R 000097". UPS
only provided one exhibit labeled "UPS-R" (which is the "UPS-R 0000097" back office email
dialogue) and buried the others. Mr. El told Judge Simon it would be proper to reopen
Discovery; since new evidence has surfaced with "one way dialogue" emails, but the Court
has not seen, if these emails were "responded to" for fully vetting connections to Retaliation
Collaboration and other Causation. However, Judge Simon did not allow Mr. El to reopen
Discovery; even though it was 'blatantly' obvious, that there was outstanding evidence not
provided by UPS during Discovery, which ended 76 days prior on March 3, 2020.
As mentioned in Mr. El's "Informal Opening Brief portion of his June 21, 2020 Notice Of
Appeal: Mr. El found out, that 9 years prior (2011) Judge Michael Howard Simon, as a
partner at Perkins Coie LLP, represented UPS for 11 years (2000-2011). During Judge
Simon's tenure at Perkins Coie LLP, as a business litigator Judge Simon represented
`employers' pro bono in First Amendment Cases, just like Mr. El's First Amendment
"religious natured" Case is against his former 'employer'. Instead of Recusing himself;
Judge Simon presided over Mr. El's Case against Judge Simon's former client UPS.

15
16
17
18
19
20
21
22
23
24
25
26

Judge Simon's relationship with Perkins Coie Law Firm and UPS and corresponding
hyperlinks are as follows:
1986: Judge Simon joined Perkins Coie LLP as a business litigation Lawyer, then in
1990: Judge Simon became a Partner at Perkins Coie LLP. Judge Simon
represented Employers against Employees in high-profile 1St Amendment Cases.
(Note: Mr. El's Case is also a 1st Amendment Case as well, regarding his Religion,
etc.) See: "President Obama Names Five To The United States District Court"
https://obamawhitehouse.archives.gov/realitycheck/the-press-office/presidentobama-names-five-united-states-district-court-0
2000: Perkins Coie LLP becomes Attorneys for UPS, while Judge Simon was a
Partner at said law firm. See: "UPS Picks Perkins Coie As Legal Counsel"
https://www.bizjournals.com/portland/stories/2000/07/31/daily22.html
2010: Judge Simon was appointed to Oregon Federal Court by Pres. Barak Obama.
See: "Obama Nominates Two For U.S. District Court Judgeships In Oregon"
https://www.orecionlive.com/news/2010/07/obama nominates two men as iud.html
2011: Judge Simon resigns from Perkins Coie Law LLP and as an attorney for UPS.
See: "Rep. David Wu loses another employee: attorney Michael Simon"
https://www.oregonlive.com/politics/2011/04/rep david wu loses another emp.html

27

17.

28

"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1
2
3
4
5

7
8
9
10

On July 6, 2020, The United States Court of Appeals (9th Circuit) issued a Notice To Show
Cause ("Show Cause"), due to jurisdictional limitations set forth in 28 U.S. Code § 2107(a);
since his Notice Of Appeal papers (mailed June 21, 2020) were received on June 26, 2020,
which was 4 days after his 30 day deadline (June 22, 2020). Both Mr. El and UPS
Answered, Responded, and Replied to the 9th Circuit's Show Cause over the course of
several months, and Mr. El's Appeal was ultimately DIMISSED on October 16, 2020 for the
said issues in 28 U.S. Code § 2107(a) raised by the Appellate Court. 14 days later (October
30, 2020) Mr. El 'timely' filed a Motion For Extension of Time ("Extension") to file a Motion
For Reconsideration and Rehearing En Banc ("Reconsideration En Banc") in the Appellate
Court. Sequentially, on November 16, 2020 Mr. El also filed a Motion To Reopen Time To
File An Appeal ("Reopen Time") with the lower Oregon District Court via 28 U.S. Code §
2107(c)(2) and Federal Rules of Appellate Procedure ("FRAP") Rule 4(6)(a)(b)(c), which
was DENIED on December 16, 2020. The Extension was GRANTED by the Appellate
Court on February 17, 2021, and Mr. El 'timely' filed his Reconsideration En Banc on March
4, 2021, which was later DENIED on March 29, 2021. At this time Mr. El began to make
preparations for his Petition For Writ Of Certiorari ("Petition") to the Supreme Court of The
United States ("SCOTUS").

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

18.

28

"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

REASONS FOR GRANTING THE PETITION
It is Mr. El's plea to the SCOTUS to not only evaluate UPS according the Laws, Rules, and
Regulations enacted by Congress, and Trans World Airlines, Inc. v. Hardison (1977), but
to also evaluate UPS according to their own standard:
"All UPS employees have the right to work in an environment free of any type of
harassment and/or discrimination. Harassment and/or discrimination because of race,
gender, national origin, disability, sexual orientation, gender identity, veteran or military
status, pregnancy, age, religion, or other legally protected characteristic or basis, or any
unlawful means, will not be tolerated. Incidents of harassment and/or discrimination must
be reported immediately to the appropriate manager or through other reporting
mechanisms." -UPS Policy Book: We Maintain an Environment Free of Discrimination and
Harassment, pg. 24
"Every person should feel free to discuss matters with our management team.
Employees are responsible for acknowledging delegated lines of authority and are
encouraged to discuss their ideas or try to resolve a disputed matter with their
immediate supervisor or manager before seeking the counsel of others." -UPS Policy Book:
We Proniote an Open Door Approach to Managing People, pg. 25
This is not the first time the SCOTUS is being presented with UPS 'failing to accommodate.'
The SCOTUS has already Ruled, against UPS in Young v. UPS (2015) for 'confirmed'
employment discrimination, which is the same year the SCOTUS recognized "failure to
religiously accommodate" in EEOC v. Abercrombie & Fitch (2015) and in that Case the
Appellant was Islamic as Mr. El too is Islamic; wherein, both she and Mr. El were faced with
having to 'compromise' their religious devotions as a 'condition of employment.' Where
Abercrombie & Fitch would have Samantha Elauf compromise wearing her religious head
covering ("Hijab") in order to be a Sales Model; UPS would have Mr. El compromise his
religious devotions that govern, dictate, and define his racial identity ("Human" and "Asiatic")
to be a Truck Helper:
"9. According to all true and divine records of the human race there is no negro, black, or
colored race attached to the human family, because all the inhabitants of Africa were and
are of the human race, descendants of the ancient Canaanite nation from the holy land of
Canaan. 10. What your ancient forefathers were, you are today without doubt or
contradiction. 11. There is no one who is able to change man from the descendant nature o
his forefathers; unless his power extends beyond the great universal Creator Allah Himself."
-The Holy Koran of The Moorish Science Temple of America, Ch.47:9-11
"Our Divine and National Movement stands for the specific grand principles of Love, Truth,
Peace, Freedom, and Justice, and. I, The Prophet, am applying to all loyal, faithful Moors,
members, and the American citizens to help me in my great uplifting acts of uplifting fallen
humanity among the Asiatic race and nation, for I have suffered much and severely in the
past through misunderstanding of what the movement was dedicated to." -The Prophet
Makes Plea To Nation, If 1, Sent. 1
19.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

When Ms. Atkinson pressured Mr. El to select from race classifications that conflict with his
religion, he informed her that his religion obligates him to acknowledge (and not comply
with) race classifications, that were produced by the institution of American slavery, and
said 'slavery rooted' race classifications are now 'eternalized' by the Office of Management
and Budget ("OMB") Federal Directive 15. The 'slavery root' of these race classifications
(that Mr. El's religion prohibits him to self-identify with) have also been addressed by U.C.
Berkeley Law School Professor: Ian Haney-Lopez who sheds light on this dispute by
stating, "This has become a burgeoning field, with studies aimed at uncovering legal
productions of race in the contexts of slavery, postbellum South, the census, OMB
Directive 15 on federal categories, contemporary immigration laws, and so on. But today
race is legally constructed principally indirectly by legal institutions that produce and bolster
deleterious racial ideologies without forthrightly engaging in the categorical debates that so
preoccupied race law through the early twentieth century." -White By Law: The Legal
Construction of Race (2006) preface XV, "3 Sent. 3-4
Mr. El's religious prohibitions to said 'slavery rooted' race classifications are principally
clarified as follows, "With us all members must proclaim their nationality and we are
teaching our people their nationality and their Divine Creed that they may know that they
are a part and a partial of this said government, and know that they are not Negroes,
Colored Folks, Black People or Ethiopians, because these names were given to slaves
by slave holders in 1779 and lasted until 1865 during the time of slavery, but this is a new
era of time now, and all men now must proclaim their free national name to be recognized
by the government in which they live and the nations of the earth, this is the reason why
Allah the Great god of the universe ordained Noble Drew Ali, the Prophet to redeem his
people from their sinful ways. The Moorish Americans are the descendants of the ancient
Moabites whom inhabited the North western and South Western shores of Africa." -The
Divine Constitution and By-Laws (Act 6). Religious prohibitions against MSTofA members
(Mr. El included) to self-identify with said 'slavery rooted' race classifications are further
clarified as follows, "85. Name some of the marks that were put upon the MOORS of
Northwest by the European nations in 1774. Negro, Black, Colored and Ethiopia." -Koran
Questions for Moorish Americans.
Mr. El explained all of the above to Ms. Atkinson as she continuously 'pressured' him to
choose from a 'slavery rooted' race classification list, which conflicted with his religion;
instead of decreasing the pressure on Mr. El, she increased the pressure by having Mr.
Loeza deal with him on that issue. Mr. Loeza was attempting to select/hover over "Black or
African American" and Mr. El rejected repeatedly leaving the two of them at an impasse.
Mr. El's religion does not support its members qualifying their identity as "African American"
either, because this classification has been treated as synonymous with "Negro", "Black",
and "Colored" in multiple U.S. Census data; even as recent as 2013, according to IPUMSUSA: Census Data for Social, Economic, and Health Research: https://usa.ipums.orci/usaaction/variables/RACBLK#questionnaire text section At Mr. El's November 21, 2019
Deposition, he made it clear to Mr. Morehead, Esq. (UPS Counsel), that this entire situation
caused him to experience "Posttraumatic Slave Syndrome" (PTSS) as published by Dr. Joy
Degruy Leary ("Dr. Leary"). Mr. Morehead, Esq. asked Mr. El, if Dr. Leary had personally
20.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

diagnosed him and Mr. El clarified, that if both Islamophobia and Homophobia are not listed
in the "Diagnostic Statistical Manual for Disorders: 5th Edition" ("DSM-5"), but both
Islamophobia and Homophobia are 'treated' as credible, then you cannot view PTSS as not
credible, just because PTSS is also not listed in the DSM-5.
Additional unethical acts by UPS's revealed at the November 21, 2019 Deposition was the
production of two 'different' employment applications where certain sections were removed,
replaced, and renamed with other subtitles and boxes. Among the falsified alterations was
UPS 'suddenly' adding in a "Choose Not To Voluntary Self Disclose" box, which was not
there originally. Even though checking a "Non-Self Disclosure Box" for race is also
'voluntary,' Mr. El would not have missed the opportunity to check such a box; as seen in
the evidence Mr. El's employment application as a school Teacher and medical records
were both subpoenaed, and in both of those records Mr. El actually selected the "Non-Self
Disclosure Box" for race. The truth is UPS did not create such a box; until a suit was filed.
There was no option on the application for selecting "Other" or "decline to state." UPS knew
that both the Race and Criminal Background sections of Mr. El's application were both left
blank, but UPS made the conscious decision to 'ignore' the blank Criminal Background
section and 'target' the blank Race section. UPS claims that they were justified with a
'non-discriminatory' reason for 'pressuring' Mr. El to self-identify his race, and they justified
it with the "Standard Form EEO-1 Reporting" from Office of Federal Contract Compliance
Programs ("OFCCP"), which says the 'preferred' method of compiling racial demographics
is for an employee to 'self-identify,' but OFCCP gives UPS the option to use 'visual
observation' (i.e. "racial profile"). UPS had the option to use 'visual, observation' or leave
Mr. El alone. UPS chose to harass Mr. El instead of respecting his religious devotions
defining his race. Additionally, removing Mr. El from employee orientation resulting in
'separating' him from his colleagues (for 'involuntarily' identifying race) was act of
segregation, which is strictly prohibited by 42 U.S.C. §§ 2000e-2(a)(2) and 2(c)(2). If the
SCOTUS held in the First Amendment case Tinker v. Des Moines (1969), "students do not
shed their rights at the schoolhouse gate," then in like manner "employees do not shed their
rights at the employer's gate."
According to Mr. El's religion, he did not associate his race with any of the options in the
UPS employment application, and if the SCOTUS held in Harris Funeral Homes v. EEOC
(2020) the right to a 'preferred' gender to Amiee Stephens, then in like manner the
SCOTUS can hold the right to a 'preferred' race; even if the 'preferred' race is not listed.
Mr. El invokes the standard of Title VII of the Civil Rights Act of 1964 to be included in the
evaluation of his Petition; even though Title VII was not in the original filing. According
SCOTUS holding in Fort Bend County v. Lois M. Davis (2019) a litigant is 'not barred'
from using the Title VII standard in a Case; especially if the Plaintiff filed an EEOC
complaint to begin with, which Mr. El absolutely did produce. An extreme dismay is Mr. El
tried to resolve this issue while he was still employed at UPS, but Ms. Johnson and Mr.
Ewing postponed meeting with him; until after his employment had terminated, yet UPS
professes, "Integrity --It is the core of who we are and all we do." —UPS Policy Book:
Values: Our Enduring Beliefs, pg. 10
21.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

Mr. El did not have a fair, unbiased, impartial hearing regarding UPS's MOTION FOR
SUMMARY JUDGEMENT, OR IN THE ALTERNATIVE PARTIAL SUMMARY JUDGMENT
("Summary Judgement"), because Judge Simon used to have a fiduciary role with and/or for
UPS for 11 years from 2000 to 20011. Judge Simon should have Recused himself from all
said proceedings; instead of compromising the integrity of the Bench. Mr. El's Case
deserves further review by the SCOTUS, due to his "Right To Due Process" was tainted by
Judge Simon and his failure to Recuse himself are in violation of: 28 U.S. Code § 455 Disqualification of justice, judge, or magistrate judge; Code of Conduct for United States
Judges: 3(C) Disqualification; and American Bar Association: Rule 2.11 Disqualification.
The SCOTUS has already Ruled against judicial misconduct such as this in Caperton v.
A. T. Massey Coal Co. (2009); wherein, it states, "whether sitting on [that] case...` "would
offer a possible temptation to the average... judge to...lead him not to hold the balance
nice, clear and true."
Judge Simon even allowed UPS (his former client) to introduce untimely evidence into the
Summary Judgement hearing, which was 76 days late. According to the SCOTUS holding
in Holland v. Jackson (2004) this is after-discovered evidence and/or newly-discovered
evidence, and could have qualified Mr. El for Relief From Judgement or Order ("Relief")
under Federal Rules of Civil Procedure ("FRCP") Rule 60(b), if Mr. El had filed said Relief of
said Rule within one year of the Ruling against him, but Mr. El had zero confidence in the
compromised integrity of the Bench, and in good faith he knew a higher Court must weigh in
on said compromise of "Equal Protection Under The Law," which is paramount. Mr. El's first
attorney filed a First Request For Production of Documents ("Production") January 31, 2019
and UPS's withholding of evidence is a violation of FRCP Rule 37, which should have
resulted in a Default Judgement for said "Failure to Make Disclosures or to Cooperate in
Discovery; Sanctions" and Judge Simon is quoted in the transcript saying that he needs to
follow the FRCPs, etc., yet it appears that he did not fairly nor impartially do so. It is the
said missing evidence of UPS allowed late entry, that prevented Mr. El from fulfilling the 3rd
and 4th of conditions of SCOTUS holding McDonnell Douglas Corp. v. Green (1973).
Furthermore, according to the SCOTUS holding in Green v. Brennan (2015), the matter at
issue was deciding if the 45 day filing period started at the point of resignation, but it also
acknowledged the grounds for injury begins, if a Plaintiff merely feels like resigning, which
would play a key role in triggering Constructive Termination: Common Law.
On September 8, 2020 Mr. El 'timely' filed a MOTION FOR DE NOVO APPELLATE
REVIEW FOR LEAVE TO PROCEED IN FORMA PAUPERIS ("De Novo Appellate
Review") where he specifically stated, "The said petition for LEAVE, also included Mr. El's
June 21, 2020 MOTION FOR APPOINMENT OF COUNSEL ("APPOINTMENT). However,
the Appellate Court's Pro Bono Department notified Mr. El via phone on September 3, 2020
at 6:20 p.m., that the Docket has no record of Mr. El's APPOINTMENT filing. It is
becoming a heightened concern about a developing pattern of documents 'actually'
filed by Mr. El are not being located properly or viewed as nonexistent filings. It is not
Mr. El's intention to place and undue burden on the Court with such concerns, but it is Mr.
El's intention to stress the importance of the Docket reflecting his germane filings.
Mr. El plans to refile an updated version of his petition for APPOINMENT to avoid the
Docket's further inaccurate reflection of his filings."-pg.1, lines 24-28 and pg.2, lines 1-6
22.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

The above paragraph was Mr. El's first sighting of there being issues with the accuracy of
the Civil Docket, but the clerical issues did not stop there, because Mr. El had to file a
Motion To Correct The Docket ("Docket Correction") in Appellate Court, due to the Clerk
incorrectly titling one of his filings. Furthermore, Mr. El found additional evidence the
Oregon District Court was not keeping timely filings either, as stated by Mr. El in his March
23, 2021 Reply To Response To Motion For Reconsideration and Rehearing En Banc
("Reply En Banc") as follows, "The Court's Order dismissing Appellant's Appeal is incorrect:
The Court continues to retain jurisdiction to review this matter additionally, because the
Oregon District Court does not maintain accurately dated submissions on their Docket
[Exhibit 08]. The Appellate Court notified the Lower Court on February 17th, 2021 of Mr. El's
"Motion For Extension Of Time" being GRANTED, but the Lower Court filed it one day later
on February 18th, 2021. (Dkt. 49). The Appellate Court also notified the Lower Court on
October 16th, 2020, that Appellant's Case was DIMISSED, but the Lower Court filed it 3
days later on October 19th, 2020. (Dkt. 46). These are two clear examples of Oregon
District Court receiving timely filings, yet they document filings untimely. Kaon-Jabbar
East El respectfully requests that the Court GRANT Appellant's Motion for Reconsideration
and Rehearing En Banc." This is proof that, if the Oregon District Court ("ODC") will
`untimely' docket what the Appellate Court sends them 'timely," then the ODC will also
`untimely' docket the Notice Of Appeal, that Mr. El sent them 'timely.' Surprisingly, after
Mr. El exposed the negligence of the ODC's docket, when the Appellate Court DIMISSED
Mr. El's "Reconsideration En Banc" and sent it to them 'timely" all of sudden the ODC finally
filed it 'timely' after filing a higher Court's filing 'untimely' twice.
Mr. El made a final entreaty to the Appellate Court regarding the 'alleged' untimely arrival of
his Notice Of Appeal, by citing it is unavoidably known across the nation, that the United
States Postal Service ("USPS") has been having COVID-19 pandemic related delays, and
the following is proof that mail may be delayed up to 4 days, "USPS Coronavirus Updates:
Expected Delivery Changes" https://faq.usps.com/s/article/USPS-Coronavirus-UpdatesExpected-Delivery-Changes Mr. El went on to use multiple online news media links to prove
his point. He even went, as far as, recognizing that the Court has the ability for "Suspension
of Rules" in FRAP Rule 2; to temporarily suspend the 3 day mailing grace period (FRCP
Rule 6(d)) out to just one more day, due to the above USPS announcement on pandemic
related delays. Lastly, Mr. El did not receive the Ruling May 22, 2020; until after 21 days
within the 30 appeal filing period and used his Notice Of Appeal by literally writing "Motion
For Extension of Time" in the Informal Opening Brief section of his Notice Of Appeal. The
9th Circuit Appellate Court claimed that an Appellant cannot do that; however, in Young v.
Kenney (2020) the 6th Circuit Appellate Court acknowledged, that Young not being a
learned Attorney filed his Motion legally unskilled and allowed it by stating, "However,
district courts must liberally construe a document that could reasonably be interpreted
as a motion for an extension of time to file a notice of appeal or a motion to reopen the time
to file an appeal." Mr. El too is legally unskilled as well. As was stated by the late SCOTUS
Justice Ruth Bader Ginsburg, "Real change, enduring change, happens one step at a time."

23.
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

1

CONCLUSION

2
3
4

The petition for a writ of certiorari should be granted.
Respectfully submitted,

5
6
7

s/Kaon-Jabbar East El
Date: 09/07/2021

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
24.

28
"AMENDED" PETITION
FOR WRIT OF CERTIORARI
IN THE SUPREME COURT
OF THE UNITED STATES
09/07/2021

Kaon-Jabbar East El
(Pro Se)
4788 N. Lombard St., #5
Portland, OR. 97283
503.875.4783

